OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/AFGHANISTAN’S
ALTERNATIVE DEVELOPMENT
PROGRAM-SOUTHERN REGION

AUDIT REPORT NO. 5-306-08-003-P
MARCH 17, 2008




MANILA, PHILIPPINES
Office of Inspector General


March 17, 2008

MEMORANDUM

TO:    	       USAID/Afghanistan Acting Director, Barbara Krell

FROM: 	        Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:	      Audit of USAID/Afghanistan’s Alternative Development Program–Southern
               Region (Audit Report No. 5-306-08-003-P)

This memorandum transmits the Office of Inspector General’s final report on the subject audit.
In finalizing the report, we considered your comments to the draft report and included the
comments in appendix II.

Based on our review of the mission’s comments we determined that a management decision
has been reached for the one recommendation.          A determination of final action for
Recommendation No. 1 will be made by the Audit Performance and Compliance Division
(M/CFO/APC) upon completion of the proposed corrective actions.

Thanks to you and your staff for the cooperation and courtesy extended to us during the audit.
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


     Audit Objective ............................................................................................................ 4    


Audit Findings ................................................................................................................. 5 


Did USAID/Afghanistan’s Alternative Development 

Program/South achieve planned results and what has 

been the impact? 


     Despite Progress, Poppy Production 

     Increased in 2007........................................................................................................ 7 


     Program Rollout Slower Than Expected ..................................................................... 9 



Evaluation of Management Comments ....................................................................... 11 


Appendix I – Scope and Methodology ........................................................................ 12 


Appendix II – Management Comments ....................................................................... 14 


Appendix III – Table A-1: ADP/S 

Achievements as of September 30, 2007.................................................................... 16 

SUMMARY OF RESULTS

The production and trafficking of illicit narcotics poses a serious challenge to the Islamic
Republic of Afghanistan (Afghanistan). According to the United Nations Office of Drugs
and Crime, production of opium poppies across the entire country increased by 17
percent in 2007. Solving the narcotics problem is widely seen as critical to achieving
security in Afghanistan. To help the Afghan Government reduce poppy cultivation, the
U.S. Government established a five pillar counternarcotics strategy. This strategy
includes incentives to stop poppy growing through alternative development projects,
combined with strong disincentives in the form of forced eradication, interdiction, and law
enforcement, while spreading the Afghan Government’s antinarcotics message through
public information activities (see pages 3-4).

In February 2005, USAID/Afghanistan awarded a 4-year $120 million contract to
Chemonics International Inc. (Chemonics) to implement the Alternative Development
Program/South (ADP/S)1 in Helmand, Kandahar, and Uruzgan provinces. In May 2007
supplemental funding raised the contract ceiling to $166 million. The goals of this
program are to accelerate regional economic development and provide new
opportunities for Afghans to seek livelihoods in the licit economy; and provide an
immediate alternative source of income to poor households whose livelihoods depend
on the poppy economy (see page 4).

USAID/Afghanistan’s ADP/S achieved some but not all of its planned results. However
despite its progress, opium production in the southern provinces continued to rise,
diminishing the intended overall impact of ADP/S (see page 5).

USAID/Afghanistan measured its progress under this program against 15 performance
indicators. As of September 30, 2007, the mission exceeded its planned targets for six
of the indicators, partially achieved its targets for eight indicators, and not achieved its
target for one indicator. A complete list of the 15 indicators and the mission’s progress
as of September 30, 2007, is included as appendix III to this report (see page 16).

Nevertheless, the mission’s efforts have had little impact on the overall U.S. strategy for
reducing poppy production in Afghanistan. Poppy production in the three southern
Afghanistan provinces covered by ADP/S increased by approximately 40 percent in
2007. This increase results from a rise in insurgency activities preventing the mission
from delivering alternative livelihoods to key poppy-growing areas, ineffectiveness and
corruption in the eradication process, and the lack of rule of law and criminal penalties
for growing poppy (see page 7).

In addition, the program could have been more successful had it started when originally
planned. Chemonics evacuated its Helmand province staff in May 2005 because of
insurgent attacks against its staff and did not return until 4 months later, which had a
major impact on the program. Consequently, Chemonics suspended all cash-for-work
activities during this period and lost much of its momentum going into the fall 2005
poppy season. Cash for work is a primary activity of ADP/S to help provide an

1
  The Alternative Development Program was formerly known as the Alternative Livelihoods
Program.


                                                                                          1
immediate source of income to farmers as an alternative to growing poppy (see page 9).

A contributing factor to delays was a 9-month lag in the mission approving the
contractor’s work plan. This report recommends that the mission address the timeliness
of review and approval of contractor work plans (see page 10).

In its response to the draft report, USAID/Afghanistan agreed with the two findings and
one recommendation. Based on the Regional Inspector General/Manila’s review of the
mission’s comments the audit determined that a management decision has been
reached for the recommendation (see page 11).

USAID/Afghanistan’s comments are included in their entirety in appendix II (see
page 14).




                                                                                     2
BACKGROUND

The production and trafficking of illicit narcotics poses the single greatest challenge to
the Islamic Republic of Afghanistan (Afghanistan). According to the United Nations
Office of Drugs and Crime, production of opium poppies increased by 17 percent across
the entire country in 2007. Afghanistan is now the world leader with approximately 93
percent of the illicit opium production, generating revenues equivalent to about 13
percent of Afghanistan’s $7.5 billion gross domestic product in 2007. As figure 1
illustrates, two southern provinces are experiencing an increase in poppy production. A
disproportionate 53 percent of the opium crop comes from a single province: Helmand.
With just 2.5 million inhabitants, this relatively rich southern province has become the
world’s biggest source of illicit drugs, surpassing the output of entire countries such as
Colombia (coca), Morocco (cannabis), and Myanmar (opium)-which have populations up
to 20 times larger. According to the State Department, narcotics revenues breed
corruption at virtually all levels of the Afghan Government while providing resources to
the Taliban, drug lords, and other terrorist groups.

                                   Figure 1: Poppy Cultivation2
                                Cultivation of Poppy by Provinces and in Total
               120,000




               100,000




                                                  All other Provinces
                80,000
    Hectares




                60,000




                40,000
                                       Helmand Province



                20,000
                                                                  Kandahr Province


                                                                            Uruzgan Province
                    0
                         2003         2004                 2005             2006               2007
                                                          Year


Solving the narcotics problem is widely seen as critical to achieving security in
Afghanistan. To this end, the Afghan Government’s 2006 National Drug Control
Strategy set a goal for securing a sustainable decrease in cultivation, production,
trafficking, and consumption of illicit drugs.


2
    Source: United Nations Office on Drugs and Crime Afghanistan Opium Survey 2007


                                                                                                      3
The U.S. Government strategy focuses on helping Afghanistan disrupt the opium-based
economy and strengthen the central government’s control over the country. To address
these objectives comprehensively, the U.S. Government has focused on helping the
Afghan Government implement the first five parts of the Afghan National Drug Control
Strategy. This strategy includes incentives to stop growing opium poppy through
alternative development projects, combined with strong disincentives in the form of
eradication, interdiction, law enforcement, and spreading the Afghan Government’s
antinarcotics message through public information activities.               The U.S.
Embassy/Afghanistan’s Bureau of International Narcotics and Law Enforcement Affairs
oversees the counternarcotics strategy and coordinates with the various cognizant U.S.
and Afghan Government agencies.

In December 2004, USAID/Afghanistan launched its alternative development program to
provide economic alternatives to the production of opium poppy in Afghanistan. Under
this program, in February 2005, USAID/Afghanistan awarded a 4-year, $120 million
contract to Chemonics International Inc. (Chemonics) to implement the Alternative
Development Program/South3 (ADP/S) in Helmand, Kandahar, and Uruzgan provinces.

ADP/S’ goal is to accelerate broad-based, sustainable regional economic development
in ways that provide new opportunities for the population in the southern provinces of
Afghanistan to seek livelihoods in the licit economy. The program has two objectives:
(1) to help accelerate licit economic growth and business activity in selected provinces in
which poppy cultivation is thriving, and (2) to help provide an immediate alternative
source of income to poor households whose livelihoods depend, directly or indirectly, on
the opium economy.

In May 2007, supplemental funding increased the contract ceiling to $166 million with an
end date of September 30, 2009. As of September 30, 2007, USAID/Afghanistan had
obligated $76 million and disbursed $60 million for ADP/S activities.

AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2008 annual audit plan to answer the following question:

•	 Did USAID/Afghanistan’s Alternative Development Program/South achieve planned
   results, and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




3
  The Alternative Development Program was formerly known as the Alternative Livelihoods
Program.


                                                                                         4
AUDIT FINDINGS

USAID/Afghanistan’s Alternative Development Program/South (ADP/S) achieved some,
but not all, of its planned results. However, despite its progress, opium production in the
southern provinces continued to rise, diminishing the intended overall impact of the
ADP/S program.

USAID/Afghanistan measured its progress under this program against 15 performance
indicators. As of September 30, 2007, the mission had exceeded its planned targets for
six of the indicators, partially achieved its targets for eight indicators, and not achieved
its target for one indicator.

A complete list of the 15 indicators and the mission’s                   progress    as   of
September 30, 2007, is included as appendix III to this report.

The following are examples where USAID/Afghanistan exceeded its targets including
creating jobs and training farmers in agricultural practices:

   •	 Number of seasonal and full-time jobs created. ADP/S exceeded its target for
      providing full-time and seasonal employment. Specifically, ADP/S has created
      133 fulltime jobs of 100 targeted and 13,741 seasonal jobs of 2,000 targeted,
      through infrastructure projects such as farm-to-market roads, canal dredging, and
      cash-for-work programs.
   •	 Farmers trained in agricultural practices in targeted poppy provinces under
      ADP/S. ADP/S exceeded its target of 16,355 by providing training for 16,896
      farmers. For example, ADP/S assisted farmers in Kandahar with rehabilitating
      pomegranate orchards, including providing advice on pest management,
      irrigation, and harvesting. In addition, the program worked with Union of Fresh
      Fruit Growers Kandahar-which represents the farmers exporting products-to
      provide technical training in cold chain management and maintenance; grading,
      packing, and precooling products before export. As a result of this effort, 782
      tons of pomegranates were exported to India, the United Arab Emirates, the
      United Kingdom, Singapore, and Canada through the end of November 2007.

The following are examples where USAID/Afghanistan partially achieved its targets:

   •	 Number of hectares devoted to licit agricultural production. For security
      reasons, the mission was unable to work in large poppy-growing areas. Still, the
      mission achieved 74 percent of its target. However, in response to the security
      crisis, the mission is focusing its resources on areas where it can go in and work
      with village elders and farmers. Specifically, the mission is distributing chili
      seedlings and wheat seeds as an alternative to poppy in the villages of Aynak,
      Bolan, Qale-i-Bost, and Karez in Helmand province.




                                                                                          5
   •	 Total labor days for cash for work. Cash-for-work programs were slightly
      behind schedule. However, the mission has greatly accelerated the program and
      plans on continuing to use cash for work to support its other efforts under ADP/S.
      For example, ADP/S initiated a cash-for-work program to clean the irrigation
      canal leading to the village of Karez in Helmand Province. The mission met 88
      percent of its target in this area.




                 Photograph of a cobblestone farm-to-market road built under the
              cash-for-work program. (Office of Inspector General, November 2007).

Finally, the mission did not achieve its target for the following indicator:

   •	 Number of business enterprises assisted. The mission intended to assist 11
      businesses, but had not provided any assistance as of September 30, 2007.
      Owing to budgetary constraints, the program is behind schedule. With the
      supplemental funding being provided and dedicated toward building an
      industrial/agricultural park in Lashkar Gah and modernizing the neighboring Bost
      airport, the mission is confident that it will meet its target. The industrial park will
      include a feed mill, juicing facility, cold storage facilities, and a poultry processing
      center. It is estimated that 1,200 new full-time jobs that are directly related to the
      industrial/agriculture park and another 11,300 indirect jobs, such as contract
      farms, will be created.

Despite the mission’s achievements, poppy production in the southern provinces of
Afghanistan has increased and delays have occurred in program implementation. These
areas are discussed below.


                                                                                            6
Despite Progress, Poppy
Production Increased in 2007

    Summary: Despite providing alternative livelihoods, the mission’s efforts have had little
    impact on the overall U.S. strategy for reducing poppy production in Afghanistan.
    Poppy production in the three southern provinces covered by ADP/S increased by
    approximately 40 percent in 2007. This increase resulted from a rise in insurgency
    activities preventing the mission from delivering alternative livelihoods to key
    poppy-growing areas, the ineffectiveness and corruption in the eradication process, and
    the lack of rule of law and criminal penalties for growing poppy.

Poppy cultivation increased in southern Afghanistan in 2007, particularly in Helmand
province. According to the Afghanistan Opium Survey 2007 published by the United
Nations Office on Drugs and Crime (UN Afghanistan Survey), opium poppy cultivation in
Helmand province increased by almost 50 percent and reached 102,770 hectares,
compared to 69,324 hectares in 2006. Fifty-three percent of total opium poppy
cultivated in Afghanistan in 2007 came from Helmand province. Thus, this one province
produced almost as much opium poppy in 2007 as all of Afghanistan in 2005. In
Kandahar province, opium poppy cultivation increased by approximately one-third to
16,615 hectares in 2007. Uruzgan province experienced a slight decrease in 2007;
however, the small gains made in Uruzgan are overshadowed by the overall effect for all
provinces covered by ADP/S, which is a significant increase in poppy cultivation as
shown in table 1.

Table 1: Opium Poppy Cultivation Trends in Southern Afghanistan (2003-2007)4
                                                                            Percentage
                                                                             Change
    Province       2003       2004        2005       2006        2007       2006-2007
    Helmand        15,371      29,353     26,500      69,324    102,770              48%
    Kandahar        3,055       4,959     12,989      12,619      16,615             32%
    Uruzgan         4,698         N/A      2,024       9,773       9,204             -6%

     Subtotal      23,124      34,312     41,513      91,716    128,589              40%

    Rest of
                   56,876      96,688     62,487      73,284      64,392             -12%
    Afghanistan
    Total          80,000     131,000    104,000     165,000    192,981              17%

The U.S. Government strategy focuses on helping Afghanistan disrupt the opium-based
economy and strengthen the central government’s control over the country. To address
these objectives comprehensively, the U.S. Government has focused on helping the
Afghan Government implement the first five parts of the Afghan National Drug Control
Strategy. This strategy includes incentives to stop growing opium poppy through
alternative development projects, combined with strong disincentives in the form of
eradication, interdiction, law enforcement, and spreading the Afghan Government’s

4
    Source: United Nations Office on Drugs and Crime Afghanistan Opium Survey 2007


                                                                                            7
antinarcotics message through public information activities. The Chemonics contract for
Alternative Development Program/South (ADP/S) recognizes this relationship and
emphasizes that alternative livelihood programs are a “major” component in the overall
counternarcotics strategy.

The increase in opium production resulted from a variety of causes. In particular, the
increased insurgency, lack of effective eradication, and lack of rule of law are driving
factors.

Insurgency activities and security incidents have significantly increased over the past
2 years. This includes attacks on road convoys, use of suicide bombers, and planting of
improvised explosive devices. The British-operated provincial reconstruction team in
Lashkar Gah defines the areas where the mission, and in particular the cognizant
technical officer, are allowed to operate. As a result of the increased insurgency, prime
poppy areas such as Nad e Ali and Marjah in Helmand province have been declared out
of bounds owing to the threat of violence. Initially, ADP/S had projects in these areas,
which included the cleaning of the Nad e Ali drains and spillway drainage systems in the
middle Helmand system. However, because of the security situation, the mission has
limited ADP/S activities to Lashkar Gah and the four villages of Aynak, Bolan, Qale-i-
Bost, and Karez in Helmand province. Further, security on roads, including those
leading from Lashkar Gah to the primary ring road and the ring road itself, is also
problematic. There have been instances of armed robbery and improvised explosive
devices that prevented the mission and implementing partners from traveling on these
roads. While the International Security Assistance Forces has plans to secure these
roads, it estimates that it will take at least a year to do so.

Apart from the increased insurgency, the lack of effective eradication also impedes
progress. According to the August 2007 U.S. Counternarcotics Strategy for Afghanistan
report, there are two types of eradication efforts. One effort, centrally-led by the Afghan
Government, is called the Afghan Eradication Force which operates in self-contained
units and eradicates with tractors. The Afghan Government sends the Afghan
Eradication Force either where a governor requests aid because of insecurity or where
the provincial government is underperforming. In 2007, it was a negotiated process and
was left up to local provincial authorities to decide which fields to eradicate. According
to the British counternarcotics representative in Lashkar Gah, the negotiations resulted
in only fringe fields being eradicated. The UN Afghanistan Survey confirms that only
marginal farms were eradicated, and this was a result of corrupt deals between field
owners, village elders, and eradication teams. Also, there is no guarantee that attempts
at forced eradication would be allowed by the Afghan Government.

In addition, another entity called the Governor Led Eradication (GLE) is also used in the
southern provinces. However, according to the August 2007 U.S. Counternarcotics
Strategy for Afghanistan report, GLEs are subject to corruption. Some provincial
authorities solicit bribes to bypass fields while eradicating the fields of farmers who do
not pay bribes. Eradication verifiers are vulnerable to pressure to inflate the amount of
verified eradication. Some areas treat GLE as a “tax,” wherein each farmer agrees to
have a small portion of his crop eradicated to satisfy GLE goals.

Finally, although the Afghan Government has laws against poppy cultivation, production,
and trade there is only marginal enforcement of those laws. According to the cognizant
technical officer, implementing partner, and others, there is no reason not to grow poppy;


                                                                                         8
only rarely is anyone arrested for doing so. All parties contend that without rule of law or
some kind of threat to the poppy farmer in the form of crop eradication or arrest poppy
will continue to be cultivated.

As of September 30, 2007, the mission had obligated approximately $76 million to a
program that was hampered by conditions beyond its control and had little impact on the
overall five-pillar strategy to reduce poppy cultivation. The mission contended that while
it agrees that these issues are beyond its control, it believes that the situation would be
worse if it was not providing the current level of alternative livelihood activities. The
mission pointed to successes in areas that were secure and its commitment to work in
these areas to expand long-term employment opportunities through activities such as
the agricultural park. Specifically, the mission pointed to the United Kingdom Foreign
and Commonwealth Office of the Government study that concludes that there continue
to be lower levels of poppy cultivation around the provincial center of Lashkar Gah,
which is where the mission is focusing its efforts.

Given the situation in Afghanistan, these issues are beyond the mission’s control, and
the audit is not making any recommendation at this time.

Program Rollout Slower Than
Expected

 Summary: According to the Alternative Development Program statement of work,
 Chemonics was to launch immediate-impact activities to coincide with other U.S.
 Government efforts to reduce the amount of poppy planted during the fall of 2005. For
 the most part, however, Chemonics did not substantially implement its program until a
 year later. This delay occurred because (1) Chemonics evacuated in May 2005
 because of security issues and did not return until September 2005, (2) the mission did
 not approve the Chemonics work plan until February 2006, focusing on long-term
 planning rather than rolling out program activities, and (3) Chemonics and the mission
 experienced turnover in critical program positions. As a result, the program missed the
 opportunity to induce more Afghans to not plant poppy in the fall of 2005 by providing
 them with immediate alternative sources of income.

USAID/Afghanistan awarded the ADP/S contract to Chemonics International Inc.
(Chemonics) in February 2005. Chemonics’ statement of work imposed a strong sense
of urgency to launch the program quickly to mitigate the social impact that other
elements of the U.S. Government’s five-pillar counternarcotics strategy would have as
these elements unfolded in major poppy-growing areas. Specifically, arrest, interdiction,
and eradication were to start in 2005, and these measures would prevent thousands of
Afghans from growing opium poppy—their only source of income. Consequently,
USAID/Afghanistan intended to start immediate-impact activities to provide Afghans with
an alternative source of income before opium poppy was planted during the fall of 2005
in order to help provide an immediate alternative source of income to poor households
whose livelihoods depended on opium. One of the primary methods of providing an
immediate source of income was cash-for-work activities.

However Chemonics did not substantially implement its alternative livelihood activities
on the ground until more than a year after the contract was awarded.



                                                                                          9
Several factors contributed to this slow implementation: the evacuation of ADP/S staff
from Helmand to Kabul, delays in approving the first-year work plan, and turnover of key
Chemonics and mission staff.

The major factor was the evacuation of contractor staff. On May 20, 2005, the
Chemonics office evacuated from Helmand after Afghans working with the project were
ambushed and killed in the Babaji district of Helmand province. Chemonics did not
relocate back to Helmand until September 2005, and only then restarted its
cash-for-work program. Chemonics claims that the evacuation also slowed down the
planning process.

A contributing factor was that the mission did not approve the Chemonics April 2005
work plan until February 2006, almost a full year after it was submitted. The mission
stated that there was a high emphasis on feasibility studies to ensure that the focus of
the program was appropriate. The cognizant technical officer was reluctant to approve a
work plan until the long-term focus of the program could be established. The cognizant
technical officer did not want to experience the same mistakes that other mission
programs had experienced as a result of implementing a program too quickly.
Furthermore, Chemonics was slow to respond to mission technical directives. In
hindsight, mission officials conceded that there needed to be a better balance between
the planning studies and timely implementation.

Another factor was staff turnover. Both mission and Chemonics personnel stated that
staffing turnover delayed implementation. Chemonics pointed out that the first chief of
party was replaced within the first 4 months of the program’s start and that this greatly
affected implementation. The turnover at Chemonics also delayed timely responses to
mission inquiries and technical directives. The mission contended that turnover in
cognizant technical officers also affected the program. It pointed out that from March
2005 through November 2006, six different employees were assigned to this position.

Owing to the delays, the mission did not roll out the alternative livelihood activities as
planned missed the opportunity before the 2005 fall poppy planting season to help
provide an immediate alternative source of income to poor households whose livelihoods
depend on growing poppy. This missed opportunity could have contributed to the
increase in poppy cultivation where ADP/S administers its programs, as reported in the
UN Afghanistan Survey (see table 1 on page 7).

Although delays in implementing ADP/S activities could have contributed to the
increased poppy cultivation in 2006, there were of course many other reasons that were
out of the mission’s control. For example, as addressed in the previous finding, the lack
of enforcement of laws against poppy cultivation and the lack of effective interdiction and
eradication campaigns--coupled with corruption and deteriorating security--were some of
the major reasons. Nevertheless, the Regional Inspector General/Manila believes that
the lack of an approved work plan contributed to delayed program implementation. To
avoid future occurrences of this issue, this audit makes the following recommendation to
improve timely performance in future programs.

       Recommendation No. 1: We recommend that USAID/Afghanistan
       develop procedures setting requirements to ensure timely review and
       approval of contractor work plans.


                                                                                        10
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Afghanistan agreed with the two findings and
one recommendation. Based on the Regional Inspector General/Manila’s review of the
mission’s comments the audit determined that a management decision has been
reached for the recommendation.

To address the recommendation the mission plans to prepare by June 30, 2008, a draft
Mission Notice that will provide the necessary guidelines to ensure cognizant technical
officers’ adherence to annual work plan submittal and approval requirements. The
mission’s office directors will be responsible for tracking the submission of required work
plans and corresponding cognizant technical officer actions including follow-up on delays
and, when applicable, work plan revisions that affect the timely approval of work plans.

A determination of final action for the recommendation will be made by the Audit
Performance and Compliance Division (M/CFO/APC) upon completion of the proposed
corrective action.

USAID/Afghanistan’s written comments on the draft report are included in their entirety
as appendix II to this report.




                                                                                        11
                                                                             APPENDIX I




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted government auditing standards to determine whether
USAID/Afghanistan’s Alternative Development Program/South (ADP/S) achieved
planned results and what the impact has been. In February 2005, USAID/Afghanistan
awarded a 4-year, $120 million contract to Chemonics International Inc. (Chemonics) to
implement the Alternative Livelihoods Program/South in the provinces of Helmand,
Kandahar, and Uruzgan. In May 2007, supplemental funding raised the contract ceiling
to $166 million. As of September 30, 2007, USAID/Afghanistan had obligated $76
million and disbursed $60 million for ADP/S activities.

The audit was performed in the Islamic Republic of Afghanistan (Afghanistan) from
November 13 through December 12, 2007, and covered ADP/S activities implemented
by Chemonics from February 2005 through September 2007. In Kabul, fieldwork was
conducted at USAID/Afghanistan and the U.S. Embassy/Afghanistan.           We also
conducted fieldwork in Lashkar Gah, Helmand province, at the following locations: the
Helmand and Argandah Valley Authority; the Ministry of Agriculture, Irrigation and
Livestock; the British Provincial Reconstruction Team; and Chemonics. Moreover, we
conducted visits to selected ADP/S project sites in Helmand province.

We reviewed and analyzed the activities supporting 15 performance indicators that
USAID/Afghanistan established to measure whether ADP/S was achieving planned
results. Chemonics was required to report on all 15 indicators in its quarterly progress
reports and reported on 11 in its biweekly reports to the mission.

As part of the audit, we assessed the significant internal controls used by
USAID/Afghanistan to monitor ADP/S activities. The assessment included controls related
to whether the mission (1) conducted and documented site visits to evaluate progress and
monitor quality, (2) required and approved an implementation plan, (3) reviewed progress
reports submitted by Chemonics, and (4) compared Chemonics’ reported progress to
planned progress and the mission’s own evaluations of progress. We also reviewed the
mission’s Federal Managers Financial Integrity Act report for fiscal year 2007, United
Nations reports, and U.S. Government reports for any issues related to the audit
objective. Finally, we reviewed relevant prior audit reports, including those issued by the
U.S. Government Accountability Office.

We also assessed the effectiveness of USAID/Afghanistan’s internal controls over
certain high-risk ADP/S activities, such as cash-for-work payments and the distribution of
crop fertilizer. This assessment included determining what controls were in place to
ensure that ADP/S activities were not used in the production of illicit crops.




                                                                                        12
                                                                            APPENDIX I



Methodology
To answer the audit objective, we interviewed officials from USAID/Afghanistan,
Chemonics, the U.S. Embassy/Afghanistan, the International Security Assistance
Forces, the United Kingdom Department for International Development, the United
Kingdom Foreign and Commonwealth Office, and the Islamic Republic of Afghanistan
(Afghanistan). We also reviewed and analyzed relevant documents at both the mission
and Chemonics. This documentation included performance monitoring plans, the
contract between USAID/Afghanistan and Chemonics, site visit and other monitoring
reports, progress reports, and financial records.

Chemonics uses a combination of Excel spreadsheets and independent studies to track
progress on the 15 established performance indicators. We compared the performance
data reported by Chemonics to USAID/Afghanistan in progress reports to the
performance data in the spreadsheets and related studies. To test the validity of the
computer-processed data used to answer the audit objective including data reported by
Chemonics in its quarterly report, we performed the following:

   •	 Reconciled a judgmental sample of biweekly reports to quarterly reports to
      ensure consistency of data being reported.
   •	 Verified a judgmental sample of performance data against supporting Chemonics
      records, including source documents provided by subcontractors in support of
      submitted invoices.
   •	 Verified a judgmental sample of source documents to documents provided by the
      subcontractor.
   •	 Verified a judgmental sample of financial data contained in the Chemonics
      September 30, 2007, quarterly report to source documents.

For each selected performance indicator, we established the following materiality
threshold criteria to measure progress made in the ADP/S program:

   • 	 The planned result would be achieved if the target number was met.

   • 	 The planned result would be partly achieved if progress was made toward
       meeting the target number.

   • 	 The planned result would not be achieved if the target number was not met.




                                                                                    13
                                                                      APPENDIX II




MANAGEMENT COMMENTS


MEMORANDUM


TO:                 Catherine M. Trujillo, RIG/Manila

FROM:               Barbara Krell, Acting Mission Director/s/

DATE:               March 05, 2008

SUBJECT:            Audit of USAID/Afghanistan’s Alternative Development
                    Program-Southern Region (Audit Report No. 5-306-08-00X-P)

REFERENCE:          CTrujillo/RPhillips memo dated 02/21/08

Thank you for providing the Mission the opportunity to review the subject draft
audit report. We would like to express our gratitude for the professionalism
exhibited by the auditor during the performance of the field work.
USAID/Afghanistan fully agrees with the audit findings and the following
recommendation contained in the report:

Recommendation No. 1: We recommend that USAID/Afghanistan develop
procedures setting requirements to ensure timely review and approval of
contractor work plans.

Planned Action: In order to address the above audit issue, USAID/Afghanistan
plans to prepare by June 30, 2008, a draft Mission Notice that will provide the
necessary guidelines to ensure Cognizant Technical Officers’ (CTOs’) adherence
to annual work plan submittal and approval requirements. The Mission Order will
state that work plans are to be submitted by implementing partners for review
and approval by the CTO no later than 30 days prior to the expiration of the
current annual work plan. Further, the work plan would be considered late if not
received within 15 days of the annual expiration and the CTO would be required
to take appropriate measures for work plans submitted late or incomplete.

Office Directors will be made responsible for tracking the submission of required
work plans and corresponding CTO actions including follow-up on delays and,
when applicable, work plan revisions that affect the timely approval of work
plans. Technical offices will be tasked to monitor compliance with agreed-upon
work plan milestones and benchmarks and the establishment of a reliable


                                                                                  14
                                                                      APPENDIX II



method to adequately track compliance by the implementing partners as well as
the CTO. Periodic reporting requirements would be established to track the
status of the work plan approval process.

The target date for issuance of the Mission order is July 31, 2008.

The Mission believes that the planned action discussed above adequately
addresses the recommendation and therefore requests RIG/Manila’s
concurrence to this management decision.




                                                                               15
                                                                                     APPENDIX III


              Table A-1: ADP/S Achievements as of September 30, 2007

                                                             Reported         Percentage
                                              FY 2007         Through          of Target
#                  Indicator                   Target        9/30/20075           Met      Target Met?6

                                                                                                        7
1    Change in production of selected        $200,000,000    $17,851,000              9%     Partial.
     high value agricultural products.

2    Number of Districts with Effective                 42            39            93%       Partial
     Vet Services.

3    Farmers receiving seed and                    41,000         82,357           201%     Exceeded
     fertilizer.

4    Farmers trained in agricultural               16,355         16,896           103%     Exceeded
     practices in targeted poppy
     provinces under ADP.

5    Number of hectares devoted to licit         439,989        326,679             74%       Partial
     agricultural production.

6    Number of Permanent Jobs Created.               100            133            133%     Exceeded

7    Number of Seasonal Jobs Created.               2,000         13,741           687%     Exceeded

8    Amount paid in cash for work in ADP       $8,000,000     $6,910,461            86%       Partial
     programs.

9    Number of Afghans paid through                39,000         58,362           150%     Exceeded
     cash for work salaries.

10   Total labor days for cash for work.        2,000,000      1,768,974            88%       Partial

11   Number of business enterprises                     11                0            0        No
     assisted.

12   Afghans trained in business skills.            1,000           687             69%       Partial

13   Kilometers of rural roads repaired in           200              77            39%       Partial
     poppy regions.

14   Kilometers of irrigation, drainage             1,642          2,158           131%     Exceeded
                          8
     canals and karezes cleaned.

15   Hectares of improved irrigation as a          65,000         56,595            87%                 7
                                                                                             Partial.
     result of ADP infrastructure works.




5
  From Chemonics quarterly report for the period ending September 30, 2007. 

6
  See page 15 for the materiality threshold criteria used.

7
  Even though results were reported for the period ending September 30, 2007, the results for 

these indicators were based on studies done through January 2007 (indicator # 1) and October 

2006 (indicator # 15) that had not been further updated through September 30, 2007. 

8
  Type of irrigation canal. 



                                                                                                  16
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
